HHS/OIG - Audit,"Review of Transitional Pass-Through Payments At Saint Francis Hospital And Medical Center For The Period August 1, 2000 Through June 30, 2001,"(A-01-01-00552)
Department of Health and Human Services
"Review of Transitional Pass-Through Payments At Saint Francis Hospital And Medical Center For The Period August
1, 2000 Through June 30, 2001," (A-01-01-00552)
December 12, 2001
Complete
Text of Report is available in PDF format (284 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether transitional pass-through payments for drugs, biologicals, and medical
devices were reimbursed in accordance with Medicare laws and regulations.  Based on our review of payments to the
hospital for 100 sample pass-through items, we determined that the hospital was reimbursed for pass-through drugs, biologicals,
and medical devices in accordance with Medicare laws and regulations.  In this respect, we found that all sample items
were eligible for transitional pass-through payments and were billed properly by the hospital.